No. QsP *" I

3fo m>t
Supreme Court of tje fHmtetr States:
THE CHURCH OF JESUS CHRIST OF
LATTER-DAY SAINTS, SERVANT:
XIU JIAN SUN, THE SPIRITUAL ADAM
Petitioner,
v.
NORTHWELL HEALTH, LONG ISLAND
JEWISH MEDICAL CENTER,
Respondent.

On Petition for Writ of Certiorari to the
State of New York Court of Appeals

BRIEF FOR PETITIONER

The Church of Jesus Christ of Latter-day saints
Servant: Xiu Jian Sun, the spiritual Adam
54-25 153rd St.,
Flushing, NY 11355
646-675-0308
Counsel for Petitioner

1

QUESTION(S) PRESENTED

The complaint of the plaintiff, -god's servant, Xiu
Jian Sun, the spiritual Adam respectfully shows and
alleges as follows
1.

The angel of the Lord Almighty, the Lord of Hosts,
sent the messenger replied to the Defendant's
accused by an angel saying, ‘seeking for profit,
gang organization.’

2. A Book of Doctrine and Covenants Section 101
81). Now, unto what shall I liken the children of Zion?
I will liken them unto the parable of the woman
and the unjust judge, for men ought always to
pray and not to faint, which saith—
82). There was in a city a judge which feared not God,
neither regarded man.
83). And there was a widow in that city, and she came
unto him, saying: Avenge me of mine adversary.
84). And he would not for a while, but afterward he
said within himself: Though I fear not God, nor
regard man, yet because this widow troubleth me
I will avenge her, lest by her continual coming she
weary me.

11

85). Thus will I liken the children of Zion.
86). Let them importune at the feet of the judge:
87). And if he heed them not, let them importune at
the feet of the governor:
88). And if the governor heed them not, let them
importune at the feet of the president:
3.

Jehovah, - the Lord god of host gives the words to
servant (Plaintiff) in the temple he made, “Trial
with god's law. Apply for jury to prevent
insult and unfair behavior.”

Ill

LIST OF PARTIES

Petitioners:
The Church of Jesus Christ of Latter-day saints
Servant: Xiu Jian Sun, the spiritual Adam
Respondent:
Northwell Health, Long Island
Jewish Medical Center

IV

Apply for a Mandarin
Chinese interpreter

Clerk's Office:
I

(Servant) Petitioner would like to request a

Mandarin Chinese court interpreter for my appeal
court day.
Thank you.
The Church of Jesus Christ of Latter-day saints
Servant:
Xiu Jian Sun, the spiritual Adam

V

TABLE OF CONTENTS

Questions Presented
List of Parties
Apply for a Mandarin Chinese interpreter

1

in
IV

1

Jurisdiction

Constitutional and Statutory Provisions Involved .... 2
Statement of the Case

4

Reasons for Granting the Writ

5

Conclusion

6

INDEX TO APPENDICES
Appendix A:
Supreme Court of the State of New York
Appellate Division: First Judicial
Department: Index No. 101049/19,
Motion No. 2021-00028, Case No. 202003564, Decision & Order February 2, 2021
Supreme Court of the State of New York
Appellate Division: First Judicial

A1

VI

Department: Index No. 101049/19,
Motion No. 2770, Case No. 2020-03564,
Decision & Order October 08, 2020 ....

A3

Appendix B:
Supreme Court of the State of New York
County (101049/2019, Decision &
Order January 06 2020)..................

B1

1
JURISDICTION

STATE OF NEW YORK COURT OF APPEALS
Decided and Entered on the
twenty-ninth day of April, 2021
Present, Hon. Janet DiFiore, Chief Judge, Presiding
SSD 20
The Church of Jesus Christ of Latter- Day Saints,
Plaintiff,
Servant: Xiu Jian Sun, The Spiritual Adam
Appellant,
v.
Northwell Health, &c., et al.,
Respondents.
Appellant having appealed to the Court of Appeals
in the above title;
Upon the papers filed and due deliberation, it is
ORDERED, that the appeal is dismissed without
costs, by the Court sua sponte, upon the ground that
the order appealed from does not finally determine the
action within the meaning of the Constitution.
Heather Davis
Heather Davis
Deputy Clerk of the Court

2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

1. The Doctrine and Covenants Section 20
Revelation on Church organization and government,
given through Joseph Smith the Prophet, at or near
Fayette, New York. Portions of this revelation may
have been given as early as summer 1829. The
complete revelation, known at the time as the Articles
and Covenants, was likely recorded soon after April 6,
1830 (the day the Church was organized). The Prophet
wrote, “We obtained of Him [Jesus Christ] the
following, by the spirit of prophecy and revelation;
which not only gave us much information, but also
pointed out to us the precise day upon which, according
to His will and commandment, we should proceed to
organize His Church once more here upon the earth.”
1). The rise of the Church of Christ in these last days,
being one thousand eight hundred and thirty years
since the coming of our Lord and Savior Jesus
Christ in the flesh, it being regularly organized and
established agreeable to the laws of our country, by
the will and commandments of God, in the fourth
month, and on the sixth day of the month which is
called April—
2. The Doctrine and Covenants Section 42
83). And thus ye shall do in all cases which shall come

3
before you.
84). And if a man or woman shall rob, he or she shall
be delivered up unto the law of the land.
85). And if he or she shall steal, he or she shall be
delivered up unto the law of the land.
86). And if he or she shall lie, he or she shall be
delivered up unto the law of the land.
87). And if he or she do any manner of iniquity, he or
she shall be delivered up unto the law, even that of
God.
88). And if thy brother or sister offend thee, thou shalt
take him or her between him or her and thee alone;
and if he or she confess thou shalt be reconciled.
89). And if he or she confess not thou shalt
deliver him or her up unto the church, not to the
members, but to the elders. And it shall be done in
a meeting, and that not before the world.
90). And if thy brother or sister offend many, he or she
shall be chastened before many.
91). And if any one offend openly, he or she shall be
rebuked openly, that he or she may be ashamed.
And if he or she confess not, he or she shall be
delivered up unto the law of God.

4
STATEMENT OF THE CASE

1.

The Lord god Jehovah sent the messenger, said to
spiritual Adam through the angel, ‘unjust judge.’

2.

Jehovah, the Lord god of host, sent the son of god,
(the revived Messiah) from God's temple gave
words to servant, said:' Pharisees1 not even
move his one finger."

1

Civil Docket for Case #: l:16-cv-01083- ENV-CLP, Court of Appeals Docket #:
16-950.

2

Civil Docket for Case #: l:17-cv-1861-JDB, Court of Appeals Docket #:18-5313.
USCADC No. 18-5313

5
REASONS FOR GRANTING THE WRIT

After ruling by the Small Claim Court, these are
the works given by Israeli God from Lord’s temple,
“The civil magistrate should restrain crime, but never
control conscience, should punish guilt, but never
suppress the freedom of the soul.” (iEW-fcll’HZTSS'Jitliff.

6

CONCLUSION

The Doctrine and Covenants Section 42
92. If any shall offend in secret, he or she shall be
rebuked in secret, that he or she may have
opportunity to confess in secret to him or her
whom he or she has offended, and to God, that the
church may not speak reproachfully of him or her.
93. And thus shall ye conduct in all things.

Dated: Queens, New York
May 27, 2021
The Church of Jesus Christ of Latter-day saints
Servant:
Xiu Jian Sun, the spiritual Adam
54-25 153rd St.,
Flushing, NY 11355
(646) 675-0308
Plaintiffs

